           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 DISABLED BENEFICIARIES HIDING WAGES

       July 2009   A-15-07-17088




EVALUATION
  REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                              SOCIAL SECURITY
MEMORANDUM

Date:      July 16, 2009                                                                             Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Disabled Beneficiaries Hiding Wages (A-15-07-17088)


           OBJECTIVE
           To identify individuals receiving Disability Insurance (DI) benefits who may have
           worked, earned wages and concealed those wages by using a relative’s Social Security
           number (SSN).

           BACKGROUND

           The Social Security Administration (SSA) administers the DI program under Title II of
           the Social Security Act. The DI program provides benefits to qualified disabled workers
           and their dependents. An individual is considered disabled for the purposes of the
           DI program if he/she cannot engage in substantial gainful activity (SGA) because of a
           medically determinable mental or physical impairment. 1 Furthermore, SSA requires
           that beneficiaries report changes in status, such as returning to work or earning wages,
                                  2
           to avoid overpayment.

           Employers are required to report individuals’ earnings to SSA. SSA maintains earnings
           records for all SSN holders 3 to assist in determining an individual’s eligibility for
           disability and other benefits.



           1
            20 C.F.R. § 404.1572 indicates that SGA is work activity that involves significant physical or mental
           activities and is done for pay or profit (or is of a type generally performed for pay or profit). See also
           Programs Operations Manual System (POMS), DI 24001.001.
           2
            Form SSA-16-INST, Reporting Responsibilities for Disability Insurance Benefits, provides instructions for
           primary DI beneficiaries on changes to be reported and how to report changes such as mailing address,
           marital status, improvement of medical condition, or a return to work. See also 20 C.F.R. §
           404.1588(a)(2).
           3
             The Master Earnings File (MEF), formally known as the Earnings Recording and Self-Employment
           Income System, contains identification and earnings information for Social Security numberholders. SSA,
           Office of Systems (OS), System No. 60-0059 71 FR 1796, 1819-1820 (January 11, 2006).
Page 2 - The Commissioner


In 2005, our Office of Investigations (OI) found instances of fraud 4 related to DI
beneficiaries hiding wages. Specifically, they found husbands were drawing DI benefits
for back injuries and mental problems while their wives, according to earnings records,
operated saw mills and drove log trucks. While these wives could have been employed
in these industries, the timing of their earnings coincided with the beginning of their
spouses’ disability benefits. These investigations revealed the individuals were
receiving DI benefits while concealing wages earned under their wives’ SSNs. Had
SSA known the beneficiaries were working, it could have avoided making improper
payments. Based on these findings, OI suggested we initiate a review to identify similar
cases.

Although we do not know the extent of this type of fraud, the examples identified by OI
confirmed the problem exists. We initiated this review to identify instances where
                        5
primary DI beneficiaries might have been concealing wages earned using their
spouse’s or child’s SSN. To meet our objective, we obtained a data extract of primary
                                    6                                          7
DI beneficiaries from one segment of the Master Beneficiary Record (MBR) and
analyzed the earnings activity of the primary beneficiaries and their respective spouses
                                        8
and children using data from the MCS.

We established criteria that isolated characteristics of possible wage concealment.
Specifically, we reviewed the earnings of primary DI beneficiaries and their respective
spouses and/or children. The review focused on their earnings for 5 years before and
after the primary beneficiary’s Date of Disability Onset (DDO) (as well as the year of
DDO). 9 We selected

•     primary DI beneficiaries, their spouses or children who had cumulative earnings that
      totaled at least $100,000 during the 5 years before and after the primary
      beneficiary’s DDO including the DDO year, and


4
 Fraud encompasses illegal acts characterized by intentional deception, which includes illegally obtaining
disability benefits. These acts include intentionally not reporting income earned and working and
continuing to claim disability benefits not actually due.
5
  SSA, POMS, GN 03301.002 B. A “primary beneficiary” is a Social Security numberholder entitled to
benefits on his/her own work record. An “auxiliary beneficiary” [spouse or child] is someone entitled to
benefits based on someone else’s work record, by virtue of relationship to the numberholder.
6
    One segment of the MBR represents 5 percent of the total population, that is, 1 of 20 segments.
7
  The MBR contains information about each claimant who has applied for Retirement and Survivors
Insurance (RSI) or DI benefits, or to be enrolled in the Hospital or Supplementary Medical Insurance
program. For example, the MBR contains a claimant's name, date of birth, gender, etc. MBR, SSA,
Deputy Commissioner of Systems, Office of Retirement and Survivors Insurance Systems (ORSIS),
System No. 60-0090. 71 FR 1796, 1826-1827 (Jan. 11, 2006).
8
    Where necessary, we obtained spouse information from the Modernized Claims System (MCS).
9
    The DDO is the month, day and year of disability onset POMS, SM 00510.200 C.1.
Page 3 - The Commissioner


•    spouses or children who earned wages from the same employer that employed the
     primary DI beneficiary in any of the 5 years before and after the primary DI
     beneficiary’s DDO including the DDO year.

We also reviewed employment information using LexisNexis, a Web-based legal
research tool, to determine employment, ownership, positions held, and relationship
information between the employer, primary DI beneficiaries, and their spouses and
children.

There were 10,070 primary beneficiaries in the MBR segment who met our selection
criteria. From this population, we judgmentally selected specific cases where it
appeared the primary disabled beneficiary was concealing wages under the SSN of
his/her spouse or child. We performed a detailed analysis of these cases and identified
36 referrals that contained evidence of potential fraud. We forwarded these referrals to
OI for further investigation. See details of our analysis for case selection in Appendix B,
Scope and Methodology.

RESULTS OF REVIEW
OI reviewed the 36 referrals and identified 2 primary DI beneficiaries who engaged in
SGA, earned wages and concealed those wages. OI presented two of these cases to
the U.S. Attorney’s Office for prosecution. OI identified a third case where the primary
beneficiary intentionally did not report wages earned to SSA. SSA established
overpayments totaling $418,881 on these three cases. 10 Of the remaining 33 referrals,
OI is reviewing 5 for possible fraud and has closed 28 11 because of unsubstantiated
evidence of fraud. Based on our overpayment findings related to the three cases in the
segment under review, if similar characteristics were exhibited in, and similar research
efforts conducted on, the remaining segments of the MBR, we estimate further analysis
could potentially yield approximately $8.4 million in overpayments. 12

CASES PROSECUTED

The details of the cases submitted to the U.S. Attorney’s Office for prosecution follow.

Case 1 – Dentistry Practice

A primary DI beneficiary fraudulently received $108,008 in benefits. This beneficiary,
who operated a dentistry practice, concealed his earnings by using his wife’s SSN. The
10
  This amount represents the sum of overpayments related to the two cases sent to the U.S. Attorney’s
Office for prosecution and the DI beneficiary who did not report wages. The amounts are $108,008,
$177,484, and $133,389, respectively. These amounts represent overpayments calculated by SSA.
11
  In October 2008, a DI beneficiary who was under investigation died. OI closed the case but did not
determine whether the beneficiary actually committed fraud.
12
  This estimate is based on our overpayment results for 1 segment ($418,881) multiplied times the
20 segments of the MBR ($8,377,620).
Page 4 - The Commissioner


wife worked as Vice President in the practice. The wife’s earnings rose from
approximately $5,200 per year before the primary beneficiary’s injury to about
$151,000 per year after his DDO. The primary DI beneficiary pled guilty in U.S. District
Court to failing to disclose an event with intent to fraudulently secure disability benefits
and making false statements to SSA. The primary DI beneficiary repaid $102,644 to
SSA with an estimated balance of $5,365.

Case 2 - Freight Transportation Company

As the president of a freight transportation company, an individual fraudulently received
$177,484 in DI benefits by using his spouse's SSN to hide his wages. Before the
primary DI beneficiary’s DDO, his spouse earned about $2,900 per year working as a
waitress. After his injury, his spouse’s earnings increased to about $107,000 per year.
OI substantiated fraud occurred through confessions by the primary beneficiary and his
wife. SSA established an overpayment of $177,484. The primary beneficiary was
sentenced to 3 years’ probation and 3 months’ home confinement, and he was ordered
to pay restitution of $141,666.

BENEFICIARY DID NOT REPORT WAGES

An individual intentionally did not report wages earned to SSA. The primary DI
beneficiary’s failure to report work activity was not discovered through our analyses;
however, as a result of our referral, OI found the fraud. SSA suspended the primary
beneficiary’s benefits and established an overpayment of $133,389.

ADDITIONAL ANALYSIS

Using the results of our initial analysis, we refined our criteria for selecting cases with
possible hidden wages and obtained a second data extract from all 20 segments of the
MBR. Specifically, for this additional analysis, we increased our selection criteria to
more precisely identify indicators of primary DI beneficiaries possibly hiding wages. For
example, we excluded spouses and children whose earnings were from the military or
State, local, or Federal governments. (See Second Phase of Review in Appendix B,
Scope and Methodology for specific details of our additional analysis.) From our
analysis, we identified 10,164 primary DI beneficiaries who met our selection criteria.
Based on our selection criteria, we identified 375 primary DI beneficiaries who may
have concealed wages under their spouse or child’s SSN. Our selection criteria
included pronounced increases in the amounts earned by the spouse or child after the
primary DI beneficiary’s DDO.

Further analysis revealed that 75 of 375 primary DI beneficiaries’ spouses or children
reported wages from the same employer either before or after the primary beneficiary’s
DDO. Of the 75, we noted instances where a primary DI beneficiary was the owner of a
company that employed the spouse. For example, a husband was drawing DI benefits
for injuries. His earnings records indicated that his wages significantly decreased after
the DDO. However, his wife’s earnings increased from $6,800 before her husband’s
Page 5 - The Commissioner


injury to $70,000 after his DDO. Before the husband’s injury, both the husband and
wife were employees at an electronic repair and maintenance business the husband
owned. Increases in wages such as this may indicate a primary DI beneficiary is using
the spouse’s SSN to conceal his wages while continuing to receive DI benefits.

Based on our analysis, records that reflect these unusual spikes in earnings along with
other factors are potential indicators of primary beneficiaries reporting wages under the
SSN of the spouse or child. To that end, our analysis of the second data extract
yielded 375 potential cases. We provided the names of 300 of the 375 primary
beneficiaries to SSA for its review. These beneficiaries represent instances where a
spouse or child’s earnings significantly increased equaling or surpassing the primary
beneficiary’s highest year of earnings before his/her DDO. SSA should consider
                                           13
performing continuing disability reviews for these cases and refer those cases that
indicate potential fraud to OI for further investigation.

Similarly, we provided 75 of the 375 primary beneficiaries to OI for its review to
determine whether there is sufficient evidence of fraud to initiate an investigation.
These primary beneficiaries represent instances where the spouse or child had a
significant increase in earnings from the same employer that the primary beneficiary
worked for before and/or after his/her DDO.

CONCLUSION AND RECOMMENDATION
The cases identified through our data analysis reflect potential disability overpayments
that may result because primary beneficiaries are hiding wages by using the SSN of
their spouse or child. The analysis we undertook was labor-intensive and yielded a
small number of actual cases. To that end, we cannot recommend that the Agency
integrate such a process into its procedures; however, we do recommend that SSA
perform a work continuing disability review on the 300 cases referred to it.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with our recommendation. The Agency’s comments are included in
Appendix C. SSA also provided technical comments that have been addressed, where
appropriate, in this report.




                                                               Patrick P. O’Carroll, Jr.



13
  See, for example, 42 U.S.C. § 421(i)(1); 20 C.F.R. § 404.1590. See also POMS, DI 28001.001, which
indicates that after an individual is determined to be disabled, SSA is required by statute to perform a
review from time to time to determine if the individual continues to be disabled. To carry out this statutory
requirement, a continuing disability review is conducted at selected intervals.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
CDR     Continuing Disability Review
CY      Calendar Year
DDO     Date of Disability Onset
DI      Disability Insurance
FR      Federal Register
MBR     Master Beneficiary Record
MCS     Modernized Claims System
MEF     Master Earnings File
OA      Office of Audit
OI      Office of Investigations
OIG     Office of the Inspector General
ORSIS   Office of Retirement and Survivors Insurance Systems
OS      Office of Systems
POMS    Program Operations Manual System
RSI     Retirement and Survivors Insurance
SGA     Substantial Gainful Activity
SM      Systems and Methods
SSA     Social Security Administration
SSN     Social Security Number
                                                                                  Appendix B

Scope and Methodology
We initiated a two-phase review to identify potential instances where primary disability
beneficiaries were concealing wages earned under the Social Security numbers (SSN)
of their spouses or children.

FIRST PHASE OF REVIEW

The first phase of our review was accomplished by analyzing an extract of primary
disabled beneficiaries and their spouses and children from one segment of the Social
                                                                 1
Security Administration’s (SSA) Master Beneficiary Record (MBR). To accomplish our
objective, we reviewed both the MBR (which included the Modernized Claims System) 2
                                     3
and the Master Earnings File (MEF).

To determine our review population, we:

•     Selected primary Disability Insurance (DI) beneficiaries, spouses, and children
      whose cumulative earnings totaled at least $100,000 during an 11-year period. We
      included the 5 years before and after the date of disability onset (DDO) as well as
      the year of DDO. 4

•     Excluded spouses and children whose earnings were from self-employment.

•     Excluded primary DI beneficiaries who did not have a corresponding spouse or child
      on the record.

Once the above criteria were met, we selected primary DI beneficiaries if their spouse
or child:



1
  The MBR contains information about each claimant who has applied for Retirement and Survivors
Insurance (RSI) or DI benefits or to be enrolled in the Hospital or Supplementary Medical Insurance
program. For example, the MBR contains the claimant's name, date of birth, gender, etc. MBR, SSA,
Deputy Commissioner of Systems, Office of Retirement and Survivors Insurance Systems (ORSIS),
System No. 60-0090. 71 FR 1796, 1826-1827 (January 11, 2006).
2
 Where necessary, we obtained spouse information from the Modernized Claim System (MCS) for
primary DI beneficiaries who are married and do not have a spouse annotated on their MBR.
3
 SSA maintains earnings information for number holders in the MEF. The MEF, formally known as the
Earnings Recording and Self-Employment Income System, Social Security Administration, Office of
Systems. The MEF contains identification and earnings information for Social Security number holders
SSA, Office of Systems (OS), System No. 60-0059, 71 FR 1796, 1819-1820 (January 11, 2006).
4
    The DDO is the month, day and year of disability onset. POMS, SM 00510.200.

                                                  B-1
  1. Had earnings in any of the 5 years after the DDO equal to or greater than the
     primary DI beneficiary’s highest year of earnings during the 5 years before the DDO.
     See example that follows (expressed in thousands).

        Type         1999       2000        2001       2002        2003        DDO         2005        2006        2007            2008        2009
   DI Beneficiary    $50            $50     $50         $50         $50        $25             $0          $0          $0           $0          $0
   Spouse or Child                                                                         $100        $100        $100            $100        $100

  2. The primary disabled beneficiary’s spouse or child had earnings in any of the
     5 years after the DDO equal to or greater than the sum of (a) the primary DI
     beneficiary’s highest year of earnings plus (b) that spouse or child’s highest year of
     earnings during the 5 years before the DDO. See example that follows (expressed
     in thousands).

         Type        1999           2000        2001        2002        2003        DDO        2005        2006        2007        2008        2009
   DI Beneficiary        $50         $50         $50         $50        $50         $25         $0          $0          $0          $0          $0
   Spouse or Child       $10         $11         $15         $14        $12                     $70         $70         $70         $70        $70

  3. The primary disabled beneficiary’s spouse or child had earnings for any of the
     5 years after the DDO equal to or greater than 50 percent of the sum of (a) the
     primary DI beneficiary’s highest year of earnings plus (b) that spouse or child’s
     highest year of earnings before the DDO. See example that follows (expressed in
     thousands).

        Type         1999       2000            2001        2002        2003        DDO        2005        2006        2007        2008        2009
   DI Beneficiary    $50            $50         $50         $50         $50         $25         $0          $0          $0          $0          $0
   Spouse or Child       $1         $2           $3          $4          $5          $5         $40         $40         $40         $40         $40

  4. The primary disabled beneficiary, their spouse or child had the same employer
     before and after the DDO. Also, the spouse or child’s earnings after the DDO were
     equal to or greater than the sum of the primary disabled beneficiary’s highest year of
     earnings before the DDO plus that spouse or child’s highest year of earnings made
     before the DDO. See example that follows (expressed in thousands).
   Type       Employer        1999        2000        2001        2002        2003    DDO            2005        2006        2007        2008     2009
DI            ABC
Beneficiary   Store           $50         $50         $50         $50         $50         $25         $0          $0          $0          $0          $0
Spouse or     ABC
Child         Store            $1          $2          $3          $4          $5         $5          $70         $70         $70        $70         $70

  5. The primary disabled beneficiary and their spouse or child had the same employer
     before and after the DDO. Also, the spouse or child’s earnings after the DDO were
     equal to or greater than 50 percent of (a) the primary disabled beneficiary’s highest
     year of earnings before the DDO plus (b) that spouse or child’s highest year of
     earnings made before the DDO. See example that follows (expressed in
     thousands).


                                                                    B-2
   Type       Employer     1999    2000    2001   2002    2003   DDO   2005   2006   2007   2008   2009
DI            ABC Store    $50     $50     $50     $50    $50    $25    $0    $0      $0     $0     $0
Beneficiary
Spouse or     ABC Store     $1      $2      $3     $4      $5    $5    $40    $40    $40    $40    $40
Child


  6. The primary disabled beneficiary’s spouse or child had the same employer after the
     DDO that the primary disabled beneficiary had before the DDO, but the spouse or
     child did not work for that employer before the DDO. See example that follows
     (expressed in thousands).

   Type       Employer    1999    2000    2001    2002    2003   DDO   2005   2006   2007   2008   2009
DI            ABC
Beneficiary   Store       $50     $50     $50     $50     $50    $25   $0      $0     $0     $0     $0
Spouse or     ABC
Child         Store        $0      $0      $0      $0      $0    $0    $100   $100   $100   $100   $100


  The identification of the 36 referrals was based on our judgment. Our judgment was
  applied to the population of primary beneficiaries after applying our criteria. Our goal
  was to identify cases from our population where it appeared the primary DI beneficiary
  was concealing wages under the SSN of their spouse or child. We determined which
  cases to either exclude or include for further review and possible submission to OI and
  the Agency for investigation.

  We excluded cases where:

  1. The spouse or child earned more money than the primary DI beneficiary before the
     DDO. We excluded these cases because it is possible the spouse or child was the
     highest earner in the family before the primary DI beneficiary’s injury, and possibly
     had the ability to earn more money due to the primary DI beneficiary’s loss of wage
     earning capacity.

  2. The spouse or child’s earnings increased after the DDO to a level equal to or greater
     than the amount earned by the primary DI beneficiary before the DDO for only
     1 year (of 5 years) after the DDO. We excluded these cases because the spouse or
     child lacked a “pattern” of wage earning after the DDO.

  3. The spouse or child had the ability to earn a substantial amount of wages equal to
     or greater than the amount earned by the primary DI beneficiary before the DDO.
     For example, a spouse or child earned $200,000 per year before the primary DI
     beneficiaries’ DDO. Then their earnings increased to $350,000 after the DDO. We
     excluded these cases because the spouse had an earnings trend that showed their
     ability to earn a substantial amount of money.




                                                    B-3
4. The spouse or child did not have earnings in Calendar Years (CY) 2006 and 2007.
   We excluded these cases because the earnings activity was no longer taking place.

We included cases where:

1. There were distinct increases in a spouse or child’s earnings after the DDO of the
   primary DI beneficiary.

2. The earnings records of the primary DI beneficiary, spouse or child showed they
   worked for the same industry.

3. The earnings records of the primary DI beneficiary, spouse or child showed they
   worked for the same employer.

With this resulting population of cases, we reviewed LexisNexis to determine
employment, ownership, positions held, and relationship information between the
employer, primary DI beneficiaries, and their spouses and children. The instances we
sent to OI and SSA for further investigation represented those cases where the
LexisNexis findings showed relationships that we believed increased the likelihood that
primary DI beneficiaries might be hiding wages.

SECOND PHASE OF REVIEW

The second phase of our review was accomplished by analyzing an extract of primary
DI beneficiaries and their spouses and children from all 20 segments of SSA’s MBR. 5
To accomplish our objective, we reviewed both the MBR (which included the
                                           6
Modernized Claims System) and the MEF.

To determine our review population, we:

•     Selected primary DI beneficiaries whose cumulative earnings totaled at least
      $100,000 in the 5 years before the DDO, and the spouse or children must have had
      cumulative earnings totaling at least $100,000 during the 5 years (in some instances
              7
      3 years) after the DDO. Also, we excluded primary beneficiaries with a DDO that
      was later than December 31, 2002.


5
    See Footnote 1 on page B-1 for a description of the MBR.
6
    See Footnote 3 on page B-1 for a description of the MEF.
7
  If the spouse or child had the same employer as the primary beneficiary before and/or after his/her DDO,
the spouse and/or child had to have earned at least $100,000 in the 5 years after the DDO. However, in
cases where the spouse or child’s earnings were equal to or greater than 50 percent of the primary
beneficiary’s highest year of earnings before the date of injury plus that spouse or child’s highest year of
earnings prior to the DDO, the spouse and/or child had to have earned at least $100,000 within the 3-year
period after the DDO. We decided to extract primary DI beneficiaries if their spouses and children have
earned at least $100,000 within the 3-year period after the DDO to detect instances where wages may
have been concealed in years immediately after the DDO.

                                                    B-4
•   Excluded spouses and children whose cumulative earnings in the 5 years (or 3
    years where applicable) after the DDO increased less than two times their total
    earnings in the 5 years before the DDO.

•   Excluded spouses and children whose earnings were from military, State, local,
    Federal, or self-employment.

•   Excluded spouses and children who did not have earnings in CY 2006.

•   Excluded primary DI beneficiaries who did not have a corresponding spouse or child
    on the record. We also excluded spouses and children with no corresponding
    primary DI beneficiary.

Once the above criteria were met, we followed the criteria from Phase one and items
one through six for the resulting beneficiaries. After applying both sets of criteria, we
then judgmentally identified 375 cases where it appeared the primary DI beneficiary
was concealing wages under the SSN of their spouse or child. We considered the
following attributes to determine which cases to either exclude or include for further
review and possible submission to OI and the Agency for investigation.

We excluded cases where:

1. The spouse or child earned more money than the primary DI beneficiary before the
   DDO. We excluded these cases because it is possible the spouse or child was the
   highest earner in the family before the DI DDO, and possibly had the ability to earn
   more money due to the primary DI beneficiary’s loss of wage earning capacity.

2. The spouse or child’s earnings increased after the DDO to a level equal to or greater
   than the amount earned by the primary DI beneficiary prior to the DDO for only 1
   year (of 5 years) after the DDO. We excluded these cases because the spouse or
   child lacked a “pattern” of wage earning after the DDO.

3. The spouse or child had the ability to earn a substantial amount of wages equal to
   or greater than the amount earned by the primary DI beneficiary before the DDO.
   For example, a spouse or child earned $200,000 per year before the primary DI
   beneficiaries’ DDO. Then their earnings increased to $350,000 after the DDO. We
   excluded these cases because the spouse had an earnings trend that showed their
   ability to earn a substantial amount of money.

4. The spouse or child did not have earnings in CYs 2006 and 2007. We excluded
   these cases because the earnings activity was no longer taking place.

We included cases where:

1. There were distinct increases in a spouse or child’s earnings after the DDO of the
   primary DI beneficiary.


                                            B-5
2. The earnings records of the primary DI beneficiary, spouse or child showed they
   worked for the same industry.

3. The earnings records of the primary DI beneficiary, spouse or child showed they
   worked for the same employer.

From the resulting population of cases, we reviewed LexisNexis for 75 primary DI
beneficiaries who had the same employer as their spouse or child before or after the
DDO. LexisNexis was used to determine employment, ownership, positions held, and
relationship information between the employer, primary DI beneficiaries, and their
spouses and children. The instances we sent to OI and SSA for further investigation
represented those cases where the LexisNexis findings showed relationships that we
believed increased the likelihood that primary DI beneficiaries might be hiding wages.

We performed our evaluation at SSA Headquarters in Baltimore, Maryland, from August
2008 through January 2009. We found the data used for this evaluation were
sufficiently reliable to meet our objectives. Our evaluation was conducted in accordance
with the Quality Standards for Inspections issued by the President’s Council on Integrity
                  8
and Efficiency.




8
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008, Pub. L. No. 110-
409 § 7, 5 U.S.C. App. 3 § 11.

                                                   B-6
                  Appendix C

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      June 26, 2009                                                           Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Disabled Beneficiaries Hiding Wages”
           (A-15-07-17088)


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. We have attached our response to the report findings and
           recommendation.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “DISABLED BENEFICIARIES HIDING WAGES” (A-15-07-17088)

We agree with the report and the recommendation, especially since cases of this nature represent
a significant potential for disability overpayments. Performing work continuing disability
reviews (CDR) on these cases is in line with Goal 4 of the Fiscal Year
2008-2013 Agency Strategic Plan, “Preserve the Public’s Trust in our Programs.” It is essential
that we protect the Trust Funds from fraud, waste, and abuse. Our specific response to your
recommendation is as follows.


Recommendation

SSA should perform a work CDR on the referred 300 cases.

Comment

We agree. We will conduct work CDRs on the referred cases.




                                              C-2
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Victoria Vetter, Audit Director, Financial Audit Division

Acknowledgments

In addition to those named above:

   Ronald Anderson, Auditor-in-Charge

   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-15-07-17088.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
